   FEDERAL COMMUNICATIONS
         COMMISSION

             OFFICE OF INSPECTOR GENERAL




            Report on Special Review of FCC Fleet Card Program

                    Special Review Report No. 01-AUD-10-42
                               September 11, 2002


   H. Walker Feaster III                                               Thomas D. Bennett
    Inspector General                                          Assistant Inspector General – Audits


    Thomas M. Holleran                                                    Robert E. Shipp
Assistant Inspector General –                                        Director – Contract Audits
    Policy and Planning




                                Non-Public - For Internal Use Only
             Report on Special Review of FCC Fleet Card Program



                             Table of Contents


                                                                  Page


EXECUTIVE SUMMARY                                                   2


REVIEW OBJECTIVE                                                    2


REVIEW SCOPE                                                        2


BACKGROUND                                                          3


CONCLUSION                                                          3




                     Non-Public - For Internal Use Only
EXECUTIVE SUMMARY

At the request of the Commission’s Managing Director, the FCC Office of Inspector
General (OIG) has conducted a special review of the Commission’s fleet card program.
The purpose of this special review was to examine FCC employee usage of Government
fleet cards and evaluate the Commission’s program for ensuring compliance with fleet
card policies and procedures. The specific objectives of this review included determining
whether (i) Commission employees use fleet cards in compliance with prescribed policies
and procedures; and (ii) whether fleet card program policies and procedures are adequate.

To accomplish the objectives of this review, we obtained an understanding of the specific
management controls governing the Commission’s Fleet Card Program. This special
review was conducted in accordance with government auditing standards.

We found that Commission employees used fleet cards in compliance with the
Commission’s fleet card policies and procedures during FY 2001. We also found that the
Commission’s fleet card policies and procedures for fleet card use to be adequate and in
compliance with the General Services Administration (GSA) SmartPay master contract1
and Federal Management Regulations.2

REVIEW OBJECTIVE

As a result of recent Congressional interest3 and at the request of the Commission’s
Managing Director, the OIG has conducted a special review of the Commission’s fleet
card program. The purpose of this special review was to examine FCC employee usage
of Government fleet cards and evaluate the Commission’s program for ensuring
compliance with travel card policies and procedures. The specific objectives of this
review included determining whether (i) FCC uses fleet cards in compliance with
prescribed policies and procedures; and (ii) Policies and procedures for using fleet cards
are adequate.

REVIEW SCOPE

The scope of this special review incorporated all steps necessary to provide the Chairman
a complete, independent and objective analysis of fleet card use by Commission
employees. The scope of the review included:

     •   Reviewing the Commission’s Fleet Credit Card Program Policies and Procedures;


1
    GSA SmartPay Master Contract Section CA – Requirements Specific to the Fleet Card Program.
2
    Federal Management Regulation, Subchapter B – Personal Property Chapter 102-34, Subpart H – Motor
    Vehicle Fueling.
3
    May 1, 2001 hearing entitled Implementation of the Travel and Transportation Reform Act of 1998:
    “Why Haven’t Federal Employees Been Held Accountable for Millions of Dollars of Federal Travel
    Expenditures?” conducted by the United States House of Representatives Government Efficiency,
    Financial Management and Intergovernmental Relations Subcommittee.
                                                  2

                               Non-Public - For Internal Use Only
     •   Assessing control risk to use as a basis for planning the nature, timing, extent of
         testing;

     •   Examining, on a test basis, evidence supporting the amounts and disclosures in
         the data and records reviewed; and,

     •   Evaluating the overall data and records presentation.

This special review was conducted in accordance with government auditing standards.

BACKGROUND

In February 1998, the Commission selected the Bank of America [hereafter “BA”] from
the General Services Administration’s (GSA) SmartPay Program4 as the vendor
providing credit cards for fleet related transactions. The FCC established the fleet card
program as the mandatory program for all charge card fleet business transactions for
obtaining supplies, services, and repairs for motor vehicles, equipment, and boats owned
or commercially leased by the Commission. The Commission has approximately 140
fleet cards assigned to vehicles and equipment that expended over $74,000 during FY
2001 for fuel, oil, vehicle washes, and other vehicle related expenditures.

At the Managing Director’s request, we initiated a special review of the Commission’s
fleet card program. On November 28, 2001, the OIG conducted an entrance conference
with the Managing Director and his representatives and notified them of the special
review goals and objectives and announced the beginning of fieldwork.

CONCLUSION

We found that Commission employees used fleet cards in compliance with the
Commission’s fleet card policies and procedures during FY 2001. We also found that the
Commission’s fleet card policies and procedures for fleet card use to be adequate and in
compliance with the General Services Administration (GSA) SmartPay master contract
and Federal Management Regulations.

During our review, we were informed that the Commission is currently updating and
revising its vehicle operations policies and procedures manual as of this review date.
During our discussions with Commission management, we recommended that
management incorporate the FCC’s fleet credit card program policies and procedures into


4
    Under the SmartPay program, the GSA contracted with the Bank of America under contract no. GS-
    23F-98004. Contract effective dates November 30, 1998 through November 29, 2003, with five
    additional one-year options to renew.




                                                   3

                                Non-Public - For Internal Use Only
its vehicle operations manual. Making this change will ensure consistency between the
two programs.

In addition, we were informed that the Commission is currently in the process of
preparing and updating its draft Electronic Purchase Card Payment policies and
procedures. Because processing fleet card transactions are the same as purchase card
transactions, the FCC is adding fleet cards to its Electronic Purchase Card Payment
policies and procedures.

On September 11, 2002, we held an exit conference and discussed the results of our
review with the Chief Financial Officer (CFO) and Financial Operations Group
representatives. Because no material exceptions were noted from our review, the CFO
concurred that issuing the report in final form is appropriate.




                                           4

                          Non-Public - For Internal Use Only
